                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                             Inspection of the
                                  International Broadcasting Bureau’s
                                Regional Office of Marketing and Program
                                  Placement in Prague, Czech Republic

                                            Report Number ISP-IB-12-44, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

         In accordance with the U.S. International Broadcasting Act of 1994 (P.L. 103-236)
Section 304(a) (3) (B), OIG is prohibited from evaluating the content of BBG broadcasting
entities. The section, entitled “Respect for Journalistic Integrity of Broadcasters,” states that
“The Inspector General shall respect the journalistic integrity of the broadcasters covered by this
title and may not evaluate the philosophical or political perspectives reflected in the content of
broadcasts.”

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Judgments                                                                         1
Context                                                                               2
Executive Management and Staffing                                                     3
Affiliate and Marketing Operations                                                    3
Vacant Deputy Director Position                                                       3
Internal Controls                                                                     4
Financial Management and Human Resources                                              5
Property Management and Travel Records                                                5
Lease Contracts                                                                       5
Information Technology                                                                7
Embassy Relationship and International Cooperative Administrative Support Services    7
Security                                                                              8
List of Informal Recommendations                                                      9
Principal Official                                                                   10
Abbreviations                                                                        11




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments

   •   The International Broadcasting Bureau’s (IBB) Regional Office of Marketing and
       Program Placement in Prague, Czech Republic (OMPP-Prague), is dedicated to its
       mission and has good internal controls and administrative procedures in place. The
       director provides strong organizational direction.

   •   OMPP-Prague is located in the headquarters of Radio Free Europe/Radio Liberty
       (RFE/RL) and maintains a good relationship with the organization, working closely on
       affiliate lease agreements. Likewise, OMPP-Prague works well with Embassy Prague
       from which it receives good administrative support.

   •   OMPP-Prague’s location near the affiliates provides the opportunity for the office and its
       satellite marketing contractors to observe and recognize emerging consumer and media
       trends.

   •   The deputy director position is vacant and unlikely to be filled due to budget constraints.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between April 16 and 30, 2012, and in Prague,
Czech Republic, between May 29 and June 1, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Context
        The mission of OMPP-Prague is to support Voice of America (VOA) and RFE/RL in
recruiting affiliates and placing programs in the Eurasian region, which includes Eastern Europe
and parts of Central and South Asia. OMPP-Prague falls under IBB’s Office of Strategy and
Development. IBB provides transmission, marketing, and program placement services for all
Broadcasting Board of Governors’ (BBG) broadcast operations. 1

        In the program placement process, affiliates agree to use BBG products. Some affiliates
are paid. All must acknowledge the relevant BBG broadcast entity as the source of the news or
other features. The location of the Prague office near countries it serves facilitates the placement
of content with media outlets. The office has contracts for 388 affiliates in 30 countries.

                                  Total Number of Affiliate Contracts
                                          (Paid and Unpaid)

      Country/Region                 Number of                 Country/Region                   Number of
                                      Affiliate                                                  Affiliate
                                     Contracts                                                  Contracts
Afghanistan                                        11   Latvia                                                    2
Albania                                            26   Lithuania                                                 2
Armenia                                             5   Macedonia                                                36
Azerbaijan                                          1   Malta                                                     1
Bosnia and Herzegovina                             63   Moldova                                                  10
Bulgaria                                            2   Montenegro                                               19
Croatia                                             1   Pakistan                                                  3
Estonia                                             1   Russian Federation                                        3
Georgia                                            12   Serbia                                                   75
Great Britain                                       2   Sweden                                                    1
Greece                                              4   Turkey                                                    1
Iraq                                               12   Ukraine                                                  32
Israel                                              1   United Arab Emirates                                      1
Italy                                               2
Kazakhstan                                          1
Kosovo                                             50
Kyrgyzstan                                          9

Total Affiliates                                                                                            389
Source: OMPP-Prague




1
 BBG is an independent federal agency that supervises all U.S. Government-supported, nonmilitary international
broadcasting, including VOA, RFE/RL, the Middle East Broadcasting Networks (Alhurra TV and Radio Sawa),
Radio Free Asia, and the Office of Cuba Broadcasting.
                                               2
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Management and Staffing
        The current office director is a U.S. Civil Service employee. The staff, which ranks
morale as high, praises his strong leadership. There are four locally employed staff members and
two personal services contractors. The director supervises nine contractors in satellite marketing
offices at various locations including in Russia, Ukraine, Central Asia, the Balkans, Pakistan,
Afghanistan, and Iraq.

Affiliate and Marketing Operations
        Over the years, the type of distribution for VOA and RFE/RL’s products has changed.
For example, Russia had 300 radio affiliates, but because of changes in Russian law and Russia’s
unwillingness to allow radio programming, all Russian affiliates are now Internet affiliates.
Other language services have found successes in new areas, especially in social media.
Marketing, in response, is evolving. In the past it included advertising in newspapers, on
billboards, and through small items such as pens. Now it is moving to digital marketing, digital
banners, and Web analysis tools to measure hits for keyword searches on VOA and RFE/RL.

        One important aspect of OMPP-Prague is its ability to recognize consumer and media
trends as they emerge. Its personnel and satellite contractors are in touch with what audiences
want and the media that they prefer to use. According to IBB management, this helps the
language services tailor production for better impact.

        The marketing operations run smoothly, with complete records. The staff used an
efficient procedure to track whether affiliates were complying with the terms of their agreements,
such as rebroadcasting VOA programs that they agreed to carry.

Vacant Deputy Director Position
        OMPP-Prague has two American positions, the director and deputy director. The former
director, a Foreign Service officer, recently retired after 12 years in the position; the deputy
director was promoted to director shortly thereafter. The deputy director position is currently
vacant. The BBG management told the OIG team that it is unlikely the deputy director position
will be filled in the near future because of budget uncertainties.

       BBG management would benefit from considering several factors before making a final
determination on the future of the deputy director position. The International Cooperative
Administrative Support Services (ICASS) cost that the position incurs is one factor that may
need to be adjusted. For FY 2012, BBG paid $126,539 for services it receives through ICASS for
two American positions. If this position is not going to be filled, the workload needs to be
modified and the cost recalculated to reflect accurate service support.

      Another factor to take into account is management of the operations. With only one
manager, payments cannot be processed in a timely fashion when the director is on leave or on


                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

temporary duty because none of the local staff is approved to be a certifying officer. Without a
deputy director, there would be also inadequate supervision of local staff.

        Finally, the duties of the deputy position are many. For example, OMPP-Prague covers
travel to countries, such as Afghanistan, Russia, and Ukraine, that requires advanced planning. In
addition, human resources documents specify that the deputy director position “may assist in the
negotiation of affiliate agreements with foreign governments or privately owned media outlets to
the benefit of IBB and its program producers.” For now, the newly appointed director is
managing the office appropriately, but it is unclear whether having one person in an office
previously managed by a director and a deputy can be a sustainable long-term solution. Although
a final decision on filling this position had not been made at the time of the inspection, BBG may
want to consider the OIG team’s observations as part of its decisionmaking about whether the
position will be filled.

         Another issue about the deputy position is the promotion potential described in its
position description. Currently the position is graded as a GS-13/14, which means that if the
incumbent applies at the GS-13 level for this position, he or she is eligible to be promoted to the
next level without further competition. In reviewing the personnel actions for the deputy
position, the inspection team found that the former incumbent was not promoted to the higher
grade level for several years after meeting the eligibility requirements of time, grade, and
performance evaluation. The incumbent expected to be promoted within a year. The deputy
director position description does not state that the promotion is automatic, but the general
expectation is that the incumbent will be promoted within a reasonable time after meeting the
eligibility requirements.

       Informal Recommendation 1: The Broadcasting Board of Governors should require
       that the Office of Marketing and Program Placement in Prague clarify the promotion
       potential in its deputy director position description and vacancy announcement if the
       position is advertised.

Internal Controls
        OMPP-Prague has a sound management controls program. Good internal controls are in
place for time and attendance procedures, financial management, inventory, contracts, and
leases. Leases and contract files are well maintained and supported. OMPP-Prague made an
unauthorized commitment for promotional items for a trade show. As soon as the director
became aware that an unauthorized commitment occurred, he sought assistance from the
embassy management officer to ratify the unauthorized commitment. However, unauthorized
commitments made by employees of another agency (BBG, in this case) require ratification by
that agency's procurement executive per 10 State 065144. The unauthorized commitment
happened because the procurement action needed to be processed immediately, and funds were
not approved in advance. Embassy procedures for procurement actions were not followed. The
director used this one-time occurrence to review with staff the relevant procedures and
regulations. When the inspection team pointed out the reporting requirement for the unauthorized
commitment, the director contacted his supervisor at IBB headquarters. Further action is still
needed.

                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       Informal Recommendation 2: The Broadcasting Board of Governors should require that
       the Regional Office of Marketing and Program Placement in Prague report the
       unauthorized commitment to the International Broadcasting Bureau’s senior procurement
       executive for ratification.

Financial Management and Human Resources
        OMPP-Prague’s budget for operating expenses is $1,313,573; its financial records are
well organized and reviewed monthly. The operations manager reconciles purchase card
transactions appropriately and closely monitors unliquidated obligations, carrying a small
balance for the last 3 years. In fact, there was no unliquidated balance for FY 2008, a true feat.
The OMPP-Prague director performs monthly cash counts, and verifications are recorded
appropriately. However, in reviewing the verifications records, the inspection team noted that
unannounced cash counts take place around the same date each month.

       Informal Recommendation 3: The Broadcasting Board of Governors should require
       the Regional Office of Marketing and Program Placement in Prague to hold monthly
       unannounced cash counts on random dates.

       OMPP-Prague’s time and attendance records are complete. The director certifies all
records. The office maintains a sign-in/sign-out sheet to track time and attendance. A timekeeper
at Embassy Prague processes the time and attendance of the OMPP-Prague timekeeper.


Property Management and Travel Records
         OMPP-Prague maintains accurate property inventory records on a spreadsheet that is
updated as items are purchased. The office performs a yearly physical inventory and sends the
results to the Office of Marketing and Program Placement in Washington. OMPP-Prague has
several items that need to be disposed and is working with the embassy to ensure proper disposal
through the embassy auction.

        OMPP-Prague has a vehicle for official use only. It maintains well-organized vehicle
usage records as well as proper controls for fuel and vehicle maintenance. The director recently
took safe driving training in accordance with the embassy’s self-drive policy. A sample review
of travel vouchers revealed that they are well supported with valid receipts, detailed expenses,
and appropriate authorizations.

Lease Contracts
        OMPP-Prague manages 74 leases in 14 countries. The total VOA lease budget for FY
2012 is $3,237,361 and for RFE/RL is $2,045,617. Below is a table with VOA and RFE/RL total
yearly costs for broadcasting services in each country as of May 30, 2012. These numbers
change throughout the year and are different from the yearly budget. With 23 contracts, VOA’s
costs at the time of this inspection were $1,733,735. RFE/RL had 51 contracts for $1,742,789.
                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



               Number and Amount of Paid Affiliate Lease Contracts FY 2012

                      Number of                Number of
                        VOA                     RFE/RL          Contract Costs     Contract Costs
      Country         Contracts                Contracts          for VOA           for RFE/RL
Afghanistan               3                        0                  $511,532                   -
Albania                   1                        0                   $ 48,180                  -
Armenia                   0                        3                          -           $157,301
Bosnia-Herzegovina        1                        6                     $7,500           $103,644
Georgia                   1                        9                    $18,012           $199,464
Kyrgyzstan                2                        7                    $31,824           $361,920
Kosovo                    2                        1                    $14,892             $1,452
Macedonia                 0                        1                          -            $68,664
Moldova                   0                        5                          -           $100,536
Montenegro                0                        1                          -            $29,208
Pakistan                  2                        0                  $657,026                   -
Russia                    1                        0                  $172,225                   -
Serbia                    1                        5                     $4,800           $117,384
Ukraine                   9                       13                  $267,744            $603,216
Totals                   23                       51                $1,733,735          $1,742,789
Source: IBB OMPP-Prague

         IBB’s affiliate contracts are advertised in Fed Biz Ops under “international affiliate
broadcasters." As part of contract negotiation, OMPP-Prague uses previous experience with the
affiliate in addition to market research trips to the region, ratings information, input from OMPP-
Prague contractors on the ground, embassies, and the broadcasters to ensure that the best price is
negotiated. The contract negotiation documents for each affiliate are kept in the files.

        In many affiliate contracts, OMPP-Prague does a sole source justification because there is
only one qualified media outlet that OMPP-Prague wants to work with for political reasons,
reputation, ratings, or overall fit with the OMPP-Prague products. In the case of markets where
several viable options are available, for example in Pakistan, OMPP-Prague puts out a
solicitation with the help of IBB’s Office of Contracts and Office of General Counsel every step
of the way. For most affiliations, OMPP-Prague uses standard contract language.

        Because OMPP-Prague and RFE/RL’s marketing office are colocated, the offices
frequently work together. The relationship between the two offices is good. RFE/RL has its own
budget for advertising and only requests services from OMPP-Prague for coordination or
assistance in issues with the affiliates.

       OMPP-Prague has problems getting invoices paid for its affiliates. About 5 years ago, the
BBG chief financial officer decided that affiliate leases would be paid from Washington. This
decision meant that the IBB marketing office in Washington would be involved because OMPP-
Prague did not have the financial system to enter the financial cost of the leases. As a result, the


                                           6
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

IBB marketing office in Washington became a bottleneck because all lease actions were routed
through the marketing office before being processed for payment in the financial office.

        When OMPP-Prague is late paying its affiliates, the affiliates cannot pay their employees
on time. The current chief financial officer favors having the leases processed in Prague by the
embassy financial management personnel. After reviewing how long it takes for affiliates to get
paid, which varies between 2 to 3 months, the inspection team endorses this change of procedure
by BBG. There may be start-up problems at first with this new process; however, it will
streamline payments because invoices are received in Prague and will be processed in country.
At the time of the inspection, OMPP-Prague was piloting the new process and working through
the problems with the Embassy Prague financial management section and Charleston Financial
Service Center.

Information Technology
        OMPP-Prague receives most information management support through RFE/RL. OMPP-
Prague personnel are highly satisfied with RFE/RL information technology services, but no
service agreement between the two offices exists and expectations of services are unclear.
Without such an agreement, questions about service expectation may arise in the future.

       Informal Recommendation 4: The Broadcasting Board of Governors should direct the
       Regional Marketing and Program Placement Office in Prague to prepare a written
       agreement with Radio Free Europe/Radio Liberty documenting its information
       technology support.

        BBG also pays through ICASS—almost $2,500 in FY 2012—for information
management technical support. This payment includes the cost of two FOBs (security tokens)
that are required to provide remote access to the Department of State’s network. One of the
FOBs is for the OMPP-Prague timekeeper who, because issuance of a FOB to a locally
employed staff member was not common, had to travel across town to the embassy to process
time and attendance records. She then brought the records to OMPP-Prague for the director’s
review and returned to the embassy to submit the final draft and take the approved report.
Providing a FOB to the timekeeper reduced wasteful crosstown trips. The embassy supported
OMPP-Prague to streamline this process.

Embassy Relationship and International Cooperative
Administrative Support Services
       OMPP-Prague maintains excellent rapport with the embassy and is satisfied with
administrative services that it receives through ICASS. The office director participates in ICASS
meetings and is a member of the embassy housing board and awards committee. He attends
country team meetings and feels part of the embassy community.

       In reviewing BBG’s ICASS invoice, the inspection team found that the office is charged
$5,377 for information management services, including the management of two Department

                                          7
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

email accounts and the use of the Department’s information technology network. In addition, the
embassy manages the procurement of OMPP-Prague mobile telephones. The office may want to
reexamine the costs for the information management services that it receives. An adjustment in
this amount, as small as it may seem, may produce cost savings.

Security
       The office director, four locally employed staff members, and two personal services
contractors are under chief of mission authority of Embassy Prague. They are subject to the May
2001 memorandum of understanding between the Department of State and BBG that describes
standards and required levels of security for these types of organizations. Being colocated in
RFE/RL headquarters building, they benefit from its security system.




                                          8
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: The Broadcasting Board of Governors should require that the
Office of Marketing and Program Placement in Prague clarify the promotion potential in its
deputy director position description and vacancy announcement if the position is advertised.

Informal Recommendation 2: The Broadcasting Board of Governors should require that the
Regional Office of Marketing and Program Placement in Prague report the unauthorized
commitment to the International Broadcasting Bureau’s senior procurement executive for
ratification.

Informal Recommendation 3: The Broadcasting Board of Governors should require the
Regional Office of Marketing and Program Placement in Prague to hold monthly unannounced
cash counts on random dates.

Informal Recommendation 4: The Broadcasting Board of Governors should direct the
Regional Marketing and Program Placement Office in Prague to prepare a written agreement
with Radio Free Europe/Radio Liberty documenting its information technology support.




                                         9
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Official
                                                                    Name     Arrival Date
                                                                               09/04
Director                                                    Adam Gartner       05/12*

*Adam Gartner has been the BBG/IBB Director since May 2012; he was previously the deputy
director from his arrival in 2004 until January 2012 when he became acting Director.




                                       10
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations

BBG             Broadcasting Board of Governors

Department      U.S. Department of State

IBB             International Broadcasting Bureau

ICASS           International Cooperative Administrative Support Services

OIG             Office of Inspector General

OMPP-Prague     Office of Marketing and Program Placement in Prague

RFE/RL          Radio Free Europe/Radio Liberty

VOA             Voice of America




                            11
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
